                                                             O FFICE OF A UDIT S ERVICES , R EGION IX
                                                                        90 - 7 T H S TREET, S UITE 3-650
                                                                         S AN F RANCISCO , CA 94103
April 13, 2012

Report Number: A-09-12-02008

Ms. Karen Wilson
Executive Director
University of Utah Hospitals and Clinics
650 Komas Drive, Suite 205
Salt Lake City, UT 84108

Dear Ms. Wilson:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Outpatient Billing for Selected Drugs at
University of Utah Hospitals and Clinics. We will forward a copy of this report to the HHS
action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact
Iman Zbinden, Senior Auditor, at (619) 557-6131, extension 109, or through email at
Iman.Zbinden@oig.hhs.gov, or contact Alice Norwood, Audit Manager, at (415) 437-8360 or
through email at Alice.Norwood@oig.hhs.gov. Please refer to report number A-09-12-02008 in
all correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Karen Wilson


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




     REVIEW OF MEDICARE
    OUTPATIENT BILLING FOR
      SELECTED DRUGS AT
     UNIVERSITY OF UTAH
    HOSPITALS AND CLINICS




                       Daniel R. Levinson
                        Inspector General

                           April 2012
                         A-09-12-02008
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services administers the program.

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains detail regarding each provided service (called a line item in
this report). Providers should use the appropriate Healthcare Common Procedure Coding
System (HCPCS) codes and report units of service as the number of times that a service or
procedure was performed or, if the HCPCS code is associated with a drug, the number of units
administered.

University of Utah Hospitals and Clinics (University of Utah) is an acute-care hospital located in
Salt Lake City, Utah. Based on data analysis, we reviewed $356,970 in Medicare payments to
University of Utah for 110 line items for injections of selected drugs that University of Utah
billed to Medicare during our audit period (January 1, 2008, through April 30, 2011). These line
items consisted of injections for infliximab, rituximab, doxorubicin hydrochloride liposome,
bortezomib, pemetrexed, alteplase, and epoetin alfa.

OBJECTIVE

Our objective was to determine whether University of Utah billed Medicare for injections of
selected drugs in accordance with Federal requirements.

SUMMARY OF FINDINGS

Of the 110 line items reviewed, 39 were billed correctly. For 52 line items, University of Utah
refunded overpayments totaling $53,500 before our fieldwork. For the 19 remaining line items,
University of Utah did not bill Medicare in accordance with Federal requirements and received
overpayments totaling $77,201, which University of Utah had not refunded by the beginning of
our audit:

   •   For 16 line items, University of Utah billed the incorrect number of units of service.

   •   For two line items, University of Utah billed for drugs that were not administered.

   •   For one line item, University of Utah billed for an unallowable service.

University of Utah attributed the overpayments to clerical and billing system errors.




                                                 i
RECOMMENDATIONS

We recommend that University of Utah:

   •   refund to the Medicare administrative contractor $77,201 in identified overpayments and

   •   ensure compliance with Medicare billing requirements.

UNIVERSITY OF UTAH COMMENTS

In written comments on our draft report, University of Utah concurred with our
recommendations and provided information on actions that it had taken to address the
recommendations. University of Utah’s comments are included in their entirety as the
Appendix.




                                              ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              Medicare Requirements for Outpatient Claims .............................................1
              Selected Drugs ...............................................................................................1
              University of Utah Hospitals and Clinics ......................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope ..............................................................................................................2
               Methodology ..................................................................................................3

FINDINGS AND RECOMMENDATIONS ......................................................................4

          FEDERAL REQUIREMENTS ..................................................................................4

          INCORRECT BILLING ............................................................................................5

          RECOMMENDATIONS ...........................................................................................6

          UNIVERSITY OF UTAH COMMENTS ..................................................................6

APPENDIX

          UNIVERSITY OF UTAH COMMENTS




                                                                    iii
                                             INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Requirements for Outpatient Claims

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains detail regarding each provided service (called a line item in
this report). Providers should use the appropriate Healthcare Common Procedure Coding
System (HCPCS) codes and report units of service as the number of times that a service or
procedure was performed or, if the HCPCS code is associated with a drug, the number of units
administered. 1

Selected Drugs

The drugs we reviewed in this audit were infliximab, rituximab, doxorubicin hydrochloride
(HCl) liposome, bortezomib, pemetrexed, alteplase, and epoetin alfa.

Infliximab

Infliximab is an injectable drug used to treat rheumatoid and psoriatic arthritis, ulcerative colitis,
Crohn’s disease, and ankylosing spondylitis. Medicare requires providers to bill one service unit
for each 10-milligram injection of infliximab. The HCPCS code for this drug is J1745 and is
described as “Injection, infliximab, 10 [milligrams].”

Rituximab

Rituximab is an injectable drug used to treat non-Hodgkin’s lymphoma, chronic lymphocytic
leukemia, and symptoms of adult rheumatoid arthritis. Medicare requires providers to bill one
service unit for each 100-milligram injection of rituximab. The HCPCS code for this drug is
J9310 and is described as “Injection, rituximab, 100 [milligrams].”

Doxorubicin Hydrochloride Liposome

Doxorubicin HCl liposome is an injectable drug used to treat metastatic ovarian cancer and
AIDS-related Kaposi’s sarcoma. Medicare requires providers to bill one service unit for each
10-milligram injection of doxorubicin HCl liposome. The HCPCS code for this drug is J9001
and is described as “Injection, doxorubicin hydrochloride, all lipid formulations,
10 [milligrams].”


1
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


                                                        1
Bortezomib

Bortezomib is an injectable drug used to treat multiple myeloma and mantle cell lymphoma.
Medicare requires providers to bill one service unit for each 0.1-milligram injection of
bortezomib. The HCPCS code for this drug is J9041 and is described as “Injection, bortezomib,
0.1 [milligrams].”

Pemetrexed

Pemetrexed is an injectable drug used to treat malignant mesothelioma and certain types of
non-small cell lung cancer. Medicare requires providers to bill one service unit for each
10-milligram injection of pemetrexed. The HCPCS code for this drug is J9305 and is described
as “Injection, pemetrexed, 10 [milligrams].”

Alteplase

Alteplase is an injectable drug used to dissolve blood clots that have formed in the blood vessels
and is used immediately after symptoms of a heart attack or stroke and to treat blood clots in the
lungs. Medicare requires providers to bill one service unit for each 1-milligram injection of
alteplase. The HCPCS code for this drug is J2997 and is described as “Injection, alteplase
recombinant, 1 [milligram].”

Epoetin Alfa

Epoetin alfa is an injectable drug used to treat anemia. Medicare requires providers to bill one
service unit for each 1,000 units of epoetin alfa. The HCPCS code for this drug is J0885 and is
described as “Injection, epoetin alfa (for non-esrd [end-stage renal disease] use), 1000 units.”

University of Utah Hospitals and Clinics

University of Utah Hospitals and Clinics (University of Utah) is an acute-care hospital located in
Salt Lake City, Utah. University of Utah’s claims are processed and paid by Noridian
Administrative Services, LLC (Noridian), the Medicare administrative contractor.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether University of Utah billed Medicare for injections of
selected drugs in accordance with Federal requirements.

Scope

We reviewed $356,970 in Medicare payments to University of Utah for 110 line items that we
judgmentally selected as potentially at risk for billing errors during our audit period
(January 1, 2008, through April 30, 2011). These line items consisted of:



                                                2
       •   31 line items for infliximab totaling $161,411, 2

       •   8 line items for rituximab totaling $89,262, 3

       •   52 line items for doxorubicin HCl liposome totaling $53,500,

       •   14 line items for bortezomib totaling $24,616,

       •   3 line items for pemetrexed totaling $21,545, 4

       •   1 line item for alteplase totaling $5,485, and

       •   1 line item for epoetin alfa totaling $1,151.

We identified these payments through data analysis.

We did not review University of Utah’s internal controls applicable to the 110 line items because
our objective did not require an understanding of controls over the submission of claims. Our
review allowed us to establish reasonable assurance of the authenticity and accuracy of the data
obtained from the National Claims History file for our audit period, but we did not assess the
completeness of the file.

We conducted our audit from May 2011 to February 2012. Our fieldwork included contacting
University of Utah, located in Salt Lake City, Utah.

Methodology

To accomplish our objective, we:

       •   reviewed applicable Federal laws, regulations, and guidance;

       •   used CMS’s National Claims History file to identify paid Medicare claims for infliximab,
           rituximab, doxorubicin HCl liposome, bortezomib, pemetrexed, alteplase, and epoetin
           alfa during our audit period;

       •   used computer matching, data mining, and analysis techniques to identify line items
           potentially at risk for noncompliance with Medicare billing requirements;

       •   identified 110 line items totaling $356,970 that Medicare paid to University of Utah;


2
    For 30 line items for infliximab, University of Utah billed Medicare in accordance with Federal requirements.
3
    For six line items for rituximab, University of Utah billed Medicare in accordance with Federal requirements.
4
  For the three line items for pemetrexed, University of Utah billed Medicare in accordance with Federal
requirements.


                                                            3
   •   contacted University of Utah to determine whether the information conveyed in the
       selected line items was correct and, if not, why the information was incorrect;

   •   reviewed documentation that University of Utah furnished to verify whether each
       selected line item was billed correctly;

   •   calculated overpayments using corrected payment information processed by Noridian;
       and

   •   discussed the results of our review with University of Utah.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

Of the 110 line items reviewed, 39 were billed correctly. For 52 line items, University of Utah
refunded overpayments totaling $53,500 before our fieldwork. For the 19 remaining line items,
University of Utah did not bill Medicare in accordance with Federal requirements and received
overpayments totaling $77,201, which University of Utah had not refunded by the beginning of
our audit:

   •   For 16 line items, University of Utah billed the incorrect number of units of service.

   •   For two line items, University of Utah billed for drugs that were not administered.

   •   For one line item, University of Utah billed for an unallowable service.

University of Utah attributed the overpayments to clerical and billing system errors.

FEDERAL REQUIREMENTS

Section 9343(g) of the Omnibus Budget Reconciliation Act of 1986, P.L. No. 99-509, requires
hospitals to report claims for outpatient services using HCPCS codes.

Section 1833(e) of the Act states: “No payment shall be made to any provider of services …
unless there has been furnished such information as may be necessary in order to determine the
amounts due such provider … for the period with respect to which the amounts are being
paid ….”

CMS’s Medicare Claims Processing Manual, Pub. No. 100-04 (the Manual), chapter 4,
section 20.4, states: “The definition of service units … is the number of times the service or
procedure being reported was performed.”


                                                 4
The Manual, chapter 17, section 90.2.A, states: “It is … of great importance that hospitals
billing for [drugs] make certain that the reported units of service of the reported HCPCS code are
consistent with the quantity of a drug … that was used in the care of the patient.” If the provider
is billing for a drug, according to chapter 17, section 70, of the Manual, “[w]here HCPCS is
required, units are entered in multiples of the units shown in the HCPCS narrative description.
For example, if the description for the code is 50 mg, and 200 mg are provided, units are shown
as 4 ….”

Chapter 1, section 80.3.2.2, of the Manual states: “In order to be processed correctly and
promptly, a bill must be completed accurately.”

INCORRECT BILLING

For 16 line items reviewed, University of Utah billed Medicare for the incorrect number of units
of service:

   •   For two line items for rituximab, University of Utah billed the incorrect number of units
       of service. Rather than billing 8 and 10 service units, University of Utah billed 80 and
       20 service units, respectively. The incorrect billing resulted in overpayments totaling
       $47,868.

   •   For 13 line items for bortezomib, University of Utah billed the incorrect number of units
       of service. Rather than billing from 13 to 26 service units, University of Utah billed from
       36 to 70 service units. The incorrect billing resulted in overpayments totaling $16,910.

   •   For the one line item for epoetin alfa, University of Utah billed the incorrect number of
       units of service. Rather than billing 80 service units, University of Utah billed 160
       service units. The incorrect billing resulted in an overpayment of $575.

For two line items reviewed, University of Utah billed Medicare for drugs that were not
administered:

   •   For the one line item for alteplase, University of Utah billed for 200 units of alteplase that
       was not administered, resulting in an overpayment of $5,485.

   •   For one line item for bortezomib, University of Utah billed for 40 units of bortezomib
       that was not administered, resulting in an overpayment of $1,139.

For one line item for infliximab, University of Utah billed Medicare for 110 units of infliximab
that was actually administered. However, University of Utah determined that the payment for
this line item was unallowable because the physician’s order expired 1 week prior to
administration. The incorrect billing resulted in an overpayment of $5,224.

In total, University of Utah received overpayments of $77,201. University of Utah attributed the
overpayments to clerical and billing system errors.


                                                 5
RECOMMENDATIONS

We recommend that University of Utah:

   •   refund to the Medicare administrative contractor $77,201 in identified overpayments and

   •   ensure compliance with Medicare billing requirements.

UNIVERSITY OF UTAH COMMENTS

In written comments on our draft report, University of Utah concurred with our
recommendations and provided information on actions that it had taken to address the
recommendations. University of Utah’s comments are included in their entirety as the
Appendix.




                                              6
APPENDIX
                                                                                                                          Page 10f2


              APPENDIX: UNIVERSITY OF UTAH COMMENTS 





            UNIVERSITY OF UTAH
            HEALTH CARE
March 8, 2012

'{ia Certified Mail


Lori A. Alstrand
HHS/OIG/OAS
90-ih Street
Suite 3-650
San Francisco, CA 94103

RE: 	    University of Utah Health Care
         Provider No. 460009
         Report Number: A-09-12-02008

Dear Ms. Ahlstrand :

The University of Utah appreciates the opportunity to respond to the Department of Health and Human
Services, Office of Inspector General ("OIG") draft report titled "Review of Medicare Billing for Selected Drugs
at University of Utah Hospitals and Clinics."

The draft report recommends that the University refund identified overpayments, and that the University
ensure compliance with Medicare billing requirements. The University concurs with the recommendations and
has already refunded identified overpayments and taken steps to prevent similar errors from occurring in the
future.

Background

In May of 2011, the University received a letter from the OIG's Office of Audit Services ("OAS") requesting a
self-review of 97 specified line items. As noted in the draft report, OAS selected the line items for review after
determining that the line items were "potentially at risk for billing errors" during the audit period (January 1,
2008, through April 30, 2011).

The University conducted the requested self-review and submitted its results to OAS in May of 2011. Later, in
July of 2011, the University received another letter from OAS requesting that the University self-review an
additional 13 line items identified by the OAS. The University supplied OAS with the results of the additional
review in May of 2011 .

~oncurrence   with the Report's Rec_Qffi!Il~d9tions

The conclusions reached in the OIG draft report are consistent with the conclusions reached by the University
through its management of the requested self-reviews. The draft report makes two recommendations, with
which the University concurs, as discussed more fully below.

Recommendation 1: "refund to the Medicare administrative contractor $77,201 in identified overpayments."

The University concurs with this recommendation. As noted in the draft report, the University refunded
identified overpayments associated with 52 reviewed line items prior to the conduct of OAS fieldwork. The
University has now refunded the additional overpayments associated with the remaining 19 line items and has



University Healthcare Billing Compliance Office. 650 Komas Drive, Suite 205 Salt Lake City, Utah 84108 • (801) 213-3948
                                                                                                                            Page 2 of2




 provided OAS with documentation of the refund. The University has now refunded all overpayments identified
 through the course of this review. The University will continue to perform retrospective audits where deemed
 necessary, as well as continue to look at concurrent claims so as to provide concurrent feedback education to
 those responsible for billing.

 Recommendation 2: "ensure compliance with Medicare billing requirements."

 The University concurs with this recommendation . Since the time period covered by this review, the University
 has continued its efforts to educate employees about the use of HCPCS codes and was able to implement
 changes to information technology systems to assist with efforts to ensure proper unit billing. Specifically, the
 University has spent time and resources training members of the Pharmacy staff in coding essentials and billing
 practices. There are regularly scheduled internal audits to ensure proper billing practices, and in order to
 provide concurrent education and feedback. The Compliance Office, in conjunction with the Pharmacy, ran a
 complete audit of the Chargemaster in order to eliminate superfluous charge codes which may not comply
 with Medicare billing requirements .

 Conclusion

 The University is committed to serving the public by improving health and quality of life through excellence in
 education, research, and clinical care. In conjunction with the operations of its health care practice, the
 University supports and maintains an active compliance program. As part of its compliance efforts, the
 University monitors and educates its staff and personnel on various issues, including billing and coding matters.
 The University believes that it has made all necessary payment adjustments. Further, the University has
 implemented appropriate corrective action as discussed above. We are pleased to have this matter closed and
 appreciate your assistance and your support of our mission and compliance efforts.



 Sincerely,


Of~ ?(/)u~L~
           '
 Karen K. Wilson, MA
 Executive Director
 University Healthcare Billing Compliance




 CC: 

 Richard Sperry, M.D., Ph.D. 

 Associate Vice President for Health Sciences 

 Academic and Clinical Affairs 

 Matheson Presidential Endowed Chair 

 Health Policy and Management

 Gordon Crabtree, M.B.A. 

 Chief Financial Officer 





 University Healthcare Billing Compliance Office . 650 Komas Drive, Suite 205 Salt Lake City, Utah 84108 • (801) 213-3948
